Jeffrey L. Driscoll
Shareholder
jdriscoll@wth-law.com
970-242-6262, Ext. 254

June 18, 2021
VIA FEDEX
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Lipin v. Wisehart Springs Inn, Inc., et al.
No. 20-1672

Dear Mr. Harris:
On behalf of Respondent, Debbie Griffith, in her official capacity as Delta County Assessor, in
the above-captioned case, I respectfully request under Rule 30.4 of the Rules of this Court, an
extension of time up to and including July 30, 2021, within which to file a brief in opposition to
certiorari. The petition for a writ of certiorari was filed on May 27, 2021 and placed on the
docket on June 2, 2021. Respondent’s brief in opposition is currently due by July 2, 2021.
The extension is respectfully requested because of counsel’s other professional commitments.
Thank you in advance for your attention to this matter, and please do not hesitate to contact me
should you need additional information.
Respectfully submitted,
WILLIAMS, TURNER & HOLMES, P.C.
Jeffrey L. Driscoll
Jeffrey L. Driscoll
Attorneys for Respondent Debbie Griffith, in her
official capacity as Delta County Assessor
cc: Joan Carol Lipin (Petitioner)
Rebecca Geyer (Co-Respondent)
Susan M. Corle | Kirsten M. Kurath | Phillip J. Jones* | Jeffrey L. Driscoll | Douglas V. Johnson**
All attorneys admitted in Colorado. *Also admitted in Florida. **Of Counsel
Tel 970-242-6262 | Fax 970-241-3026 | wth-law.com

Ladies and Gentlemen
June 21, 2021
Page 2 of 2
Mark Apelman (Attorney for Co-Respondents)

Williams, Turner & Holmes, P.C. | Tel 970-242-6262 | Fax 970-241-3026 | wth-law.com

